Office of Inspector General
    Audit Report


    IMPROVEMENTS TO DOT’S
  GOVERNANCE PROCESSES ARE
 NEEDED TO ENHANCE OVERSIGHT
   OF MAJOR IT INVESTMENTS
  Office of the Secretary of Transportation
       Federal Aviation Administration

       Report Number: ZA-2013-057
       Date Issued: March 27, 2013
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Improvements to DOT’s Governance                                         Date:    March 27, 2013
           Processes Are Needed To Enhance Oversight of
           Major IT Investments
           Report Number ZA-2013-057
           Office of the Secretary of Transportation
           Federal Aviation Administration

  From:    Mary Kay Langan-Feirson                                                       Reply to
                                                                                         Attn. of:   JA-60
           Assistant Inspector General for Acquisition and
             Procurement Audits

    To:    Deputy Secretary
           Federal Aviation Administrator


           The U.S. Department of Transportation’s (DOT) fiscal year 2012 major
           information technology (IT) investment portfolio was just over $2.2 billion. 1
           About 94 percent ($2.07 billion) of the portfolio is managed by the Federal
           Aviation Administration (FAA). FAA’s major IT investments fund important
           aviation modernization programs, including the Next Generation Air
           Transportation System (NextGen), a multibillion-dollar effort to modernize the
           U.S. air traffic control system. 2 However, since 2005, FAA has experienced cost
           overruns, schedule delays, or both on 7 of its 14 major air traffic control IT
           programs, including 1 that exceeded original cost estimates by $2 billion and was
           delayed by 14 years. 3 Our office and the Government Accountability Office
           (GAO) have issued numerous audit reports and testimonies related to FAA’s major
           IT investments that point to longstanding and significant concerns in the Agency’s
           management and oversight of these critical programs (see exhibit B).


           1
             OMB Circular A-130, “Management of Federal Information Resources,” defines “major information system(s)” as
           those that require special management attention for reasons including importance to the agency’s mission; high
           development, operating, or maintenance costs; or significant role in administering agency programs. The $2.2 billion
           represents DOT’s major IT investments as reported on OMB’s IT dashboard, as of September 2012. DOT’s total
           portfolio including non-major IT investments is $3.0 billion.
           2
             According to FAA’s fiscal year 2012 enacted budget, 30 percent of its IT investment portfolio is devoted to NextGen
           programs.
           3
             FAA’s February 2012 Capital Investment Plan, Appendix D.
                                                                                                                 2


To improve oversight of major Federal IT investments, the Office of Management
and Budget (OMB) called for agencies to establish executive investment
governance processes. In response, DOT established a departmental Investment
Review Board (IRB), effective December 4, 2009, to help ensure the Department
realizes optimal value for its IT investments. DOT also required that individual
IRBs be established within each of its 12 Operating Administrations that are
responsible for overseeing their IT investments. The Joint Resources Council
(JRC) serves as FAA’s IRB to help ensure FAA’s capital investments fulfill
mission priorities and maximize resources.

Given the cost, complexity, and importance of major IT investments to the
Department’s mission, we assessed whether (1) DOT’s investment governance
practices meet Federal and statutory investment oversight requirements and best
practices, and (2) FAA and DOT provide sufficient oversight of FAA’s major IT
investments.

In conducting this audit, we analyzed DOT’s and FAA’s investment review
policies and practices, interviewed IRB and JRC members, surveyed Chief
Information Officers (CIO) at all 12 of DOT’s Operating Administrations, and
reviewed all 15 key investment decisions that the JRC made in calendar year 2010
through November 2011, worth a combined value of over $2.6 billion. We
conducted this review between September 2011 and January 2013 in accordance
with generally accepted Government auditing standards prescribed by the
Comptroller General of the United States. Exhibit A provides further details on
our scope and methodology.

RESULTS IN BRIEF
DOT’s investment oversight practices do not fully meet OMB requirements or
DOT policies. Specifically, DOT does not have an active IRB or supporting
boards to provide a comprehensive management framework. Until recently, 4 the
Department had not held a senior management level IRB meeting in almost
2 years, despite OMB requirements to meet periodically and DOT’s 2009 IRB
Charter requirements to meet semiannually. 5 IRB meetings are intended to provide
strategic oversight of DOT’s entire IT investment portfolio. Instead, DOT relied
solely on evidence-based TechStat accountability sessions, which are, by design,

4
  On December 14, 2012, DOT held its first IRB meeting since February 2011. The meeting did not include a review of
DOT’s IT portfolio. Instead, the Office of the CIO (OCIO) presented a proposed framework for departmentwide IT
governance and a draft, updated IRB charter, which was dated October 23, 2012.
5
  OMB Circular A-130, “Management of Federal Information Resources,” requires agencies to establish oversight
mechanisms that require periodic review of information systems. Under DOT’s IRB charter, dated December 4, 2009,
the IRB is to meet semiannually to provide strategic direction, leadership, and alignment of IT investments and
programs with DOT business needs and direction, budget objectives, goals, performance planning, and reporting to
conduct investment oversight duties.
                                                                                                                3


less comprehensive than IRB reviews because they focus on individual troubled or
underperforming programs. OMB requires that agencies use TechStat sessions and
specifies that the sessions should supplement rather than replace agency IRB
reviews. 6 Additionally, DOT did not fully implement OMB’s TechStat guidance.
For example, DOT did not consistently hold program offices accountable for
completing assigned action items, which, according to OMB, is a key objective of
TechStat sessions. For the 8 TechStat sessions we reviewed, DOT did not track
56 percent of action items to completion. During our audit, DOT initiated actions
intended to reform its IT investment oversight, such as issuing a high-level
departmental IT governance policy 7 and proposing a new framework for IT
governance. However, DOT has not yet developed comprehensive plans and
procedures to implement this new framework.

FAA and DOT face challenges in providing sufficient oversight of FAA’s major
IT investments. FAA’s JRC has a comprehensive framework for investment
governance, yet the Agency does not always follow the JRC approval and
oversight process. For example, program offices do not always submit critical
investment information—such as program requirements and cost and schedule
estimates—prior to JRC investment decisions, and the JRC Secretariat does not
maintain a complete repository of investment information as FAA’s Acquisition
Management System (AMS) requires. 8 Consequently, the JRC risks making
investment decisions with incomplete information, which could jeopardize the
success of critical FAA programs. FAA has recently created a new Program
Management Office (PMO) for its Air Traffic Organization (ATO) to oversee the
execution of its IT programs and supplement the JRC; however, this group is not
yet fully staffed and lacks processes needed to function effectively in this role.
Finally, DOT’s IT governance process provides only limited oversight of FAA’s
major IT investments—even though FAA’s IT investments comprise 94 percent
($2.07 billion) of DOT’s fiscal year 2012 major investment portfolio. Notably,
DOT has only reviewed two FAA programs in the past 2 years.

We are making a series of recommendations to improve DOT’s and FAA’s
oversight of major IT investments.

BACKGROUND
Since the 1990s, Federal initiatives have called for agencies to use rigorous
governance processes to manage their investments. The Clinger-Cohen Act of
1996 establishes the CIO position in Federal executive agencies and requires each
6
  OMB guidance, A Year in Review: Outcomes and Lessons Learned from Implementing Agency-Led TechStat Reviews
Across the Federal Government, states that TechStat reviews are to be integrated into the agency’s broader IT
management framework. OMB also states that TechStats should not be viewed as a separate investment review process.
7
  DOT Policy Order 1351.39, dated August 29, 2012.
8
  AMS Appendix A, Roles and Responsibilities.
                                                                                                                   4


agency to implement a management framework to optimize IT expenditures. 9
OMB’s Circular A-130, “Management of Federal Information Resources,” issued
November 2000, requires the agency’s CIO to (1) monitor and evaluate IT
investment performance through a capital planning and investment control
process, and (2) advise the agency head on budgetary implications of IT decisions.
In response, DOT chartered its IRB in December 2009. In addition to the
departmentwide IRB, the Department required each DOT Operating
Administration to establish an IRB to select and manage their individual
investments.

FAA’s IRB is the JRC. Under FAA’s AMS, the JRC is to help ensure FAA’s
capital investments fulfill mission priorities and maximize resources, and the JRC
Executive Secretariat manages a Readiness Process intended to determine if its
investments align with FAA’s mission. FAA’s Capital Investment Planning and
Control Process prescribes key decision points to determine and prioritize
investment decisions, implement solutions, and manage them over their lifecycle
(see table 1).

Table 1. Key Decision Points in FAA’s Lifecycle Management
Process

Key Decision                      Definition
Concept & Requirements            Translates priority operational needs in the Enterprise Architecture
Definition Readiness              (EA) into preliminary requirements and a concept of operations to
                                  improve service delivery. Identifies alternative solutions able to
                                  satisfy the service need.
Investment Analysis               The Investment Decision Authority (IDA) determines whether the
Readiness                         concept of use, preliminary requirements, EA products, and
                                  alternatives are sufficiently defined to move to investment analysis.
Initial Investment                Enables the IDA to select the best alternative that meets the
                                  required performance and offers the greatest value.
Final Investment                  Details planning for the alternative selected for implementation.
In-Service                        Authorizes deployment of a solution into the operational
                                  environment.
Baseline Change                   Replans the remaining schedule and/or reallocates the remaining
                                  budget.
Source: FAA

Recently, OMB has placed increased importance on sound agency capital planning
and IT investment governance to improve the way Federal IT investments are

9
  Clinger-Cohen Act of 1996 (formerly the Information Technology Management Reform Act), Pub. L. No. 104-106,
Division E (1996); codified at 40 United States Code (U.S.C.) § 11101, et seq. (2011). According to FAA, the Clinger-
Cohen Act does not apply to the Agency because 49 U.S.C. § 40110(d) empowers the FAA Administrator to establish
the AMS to address the unique needs of FAA without requiring compliance with most Federal acquisition laws or
regulations, including the Clinger-Cohen Act.
                                                                                                           5


managed. In December 2010, the Federal CIO issued an assessment of
governmentwide IT governance and announced a plan for IT reform, which
established the requirement for Federal agencies to conduct TechStat
accountability sessions on troubled investments, and to turnaround or terminate
poorly performing projects. 10 In August 2011, OMB required that agency CIOs be
positioned with the authority to improve their agencies’ operating efficiencies,
take a lead governance role, and ensure IT portfolio analysis is an integral part of
the annual budget process. 11

In December 2011, the Federal CIO Council issued an assessment of agency-led
TechStats after 1 year of implementation across the Federal Government. The
Federal CIO Council’s report reiterated that TechStat accountability sessions
(1) provide a valuable accountability tool to supplement existing agency review
processes and IRBs, and (2) are intended to be integrated into agencies’ strategic,
comprehensive performance management frameworks for their IT investment
portfolios. 12

DOT’S INVESTMENT OVERSIGHT PRACTICES DO NOT FULLY
MEET OMB REQUIREMENTS OR DOT POLICIES
DOT does not have a comprehensive management framework for executive
oversight of its $2.2 billion major IT investment portfolio. Instead of holding
required senior management level IRB meetings, which focus on reviewing the
Department’s entire IT investment portfolio, DOT had, until recently, relied solely
on TechStat accountability sessions, which are intended to only focus on
individual troubled or underperforming programs. Further, DOT has not fully
implemented OMB’s TechStat guidance and has not held TechStats for several
projects that DOT rates as “at risk.” During our audit, DOT initiated some actions
intended to reform its IT investment framework, but it has not yet developed
comprehensive plans and procedures to implement them.

DOT Does Not Have a Comprehensive Framework for Executive
Oversight of Its IT Investments
Until recently, DOT’s IRB had not held required semiannual investment review
sessions since February 2011. As a result, DOT has not complied with either
OMB’s requirements for investment oversight or DOT’s 2009 IRB Charter, which
outlines specific planning and oversight roles for the IRB. Officials from DOT’s
Office of the CIO (OCIO) explained that the Department placed the IRB process

10
   OMB, 25 Point Implementation Plan to Reform Federal Information Technology Management, Dec. 9, 2010.
11
   OMB Memorandum, “Chief Information Officer Authorities,” Aug. 8, 2011.
12
   OMB guidance, A Year in Review: Outcomes and Lessons Learned from Implementing Agency-Led TechStat Reviews
Across the Federal Government, Dec. 8, 2011.
                                                                                                                     6


in “hibernation” because the meetings were ineffective at overseeing DOT’s
investments. According to OCIO officials, IRB members frequently delegated
meeting attendance to lower ranking officials, so the IRB could not make
meaningful decisions needed to oversee DOT’s IT investments. We briefed DOT
on our audit findings in September 2012, and the OCIO subsequently held an IRB
meeting on December 14, 2012. However, this IRB meeting did not include a
review of DOT’s IT portfolio or troubled programs. Instead, the OCIO presented a
proposed framework for DOT’s IT governance and a draft, updated IRB Charter,
dated October 23, 2012. The OCIO did not schedule the next IRB meeting or
establish action items to finalize the IT governance framework and IRB Charter.

In addition, while DOT’s 2009 IRB Charter designated a subcommittee called the
Executive Committee (ExComm) to oversee the individual IRBs of DOT
Operating Administrations, 13 it too stopped meeting. In response to our survey,
9 of 11 CIOs—who oversee their Operating Administration’s IRBs—stated that
the ExComm has not assessed their IRBs’ performance. As such, the ExComm
and OCIO lack full insight and are not well positioned to advise on investments
approved by the Operating Administrations’ IRBs. 14

Finally, while DOT’s Office of the Chief Financial Officer (OCFO) collaborates
with Operating Administrations when they submit their annual budgets, DOT does
not have a process to monitor and oversee Operating Administrations’ programs
after they have been appropriated funding. 15 This is contrary to OMB’s
requirement that agency CIOs not only have the authority to improve their
agencies’ IT program operating efficiencies but that they also take a lead
management advisory role, to include recommending termination of
underperforming programs, when necessary.

Strategic departmentwide oversight is especially important in a decentralized
department like DOT, which has 12 Operating Administrations, each with unique
investment portfolios. Without an active IRB and supporting boards, DOT does
not have a comprehensive management framework to provide executive oversight
or integrated portfolio management of its $2.2 billion major IT investment
portfolio. As a result, DOT is not well positioned to meet Federal requirements for
investment oversight, which is intended to enforce accountability and maximize
the value of IT investments.


13
   DOT’s 2009 IRB charter also requires the ExComm subcommittee to meet quarterly to ensure Operating
Administrations execute their responsibilities for planning, selecting, acquiring, securing, operating, and managing IT
investments.
14
   DOT’s draft, updated IRB charter, dated October 23, 2012, would eliminate the ExComm’s role and establish an
Executive Secretariat to monitor Operating Administrations’ IRB performance.
15
   DOT’s December 14, 2012, proposed framework for IT governance provides a conceptual model illustrating at a
high level the intended relationships among DOT’s IRB, the Operating Administration’s IRBs, and their budget offices.
                                                                                                                7


DOT Relied Solely on TechStat Reviews of Individual Programs in
Place of Strategic Oversight of the Department’s IT Portfolio
During our review, DOT relied solely on its TechStat accountability sessions for
its IT management framework. However, TechStats are intended to review
individual troubled programs rather than support portfolio-wide investment
decisions. In 2010, OMB required all agencies to conduct TechStat accountability
sessions, which are evidence-based reviews of troubled or underperforming IT
programs. While DOT began its TechStat accountability sessions in March 2011,
it did not until recently hold IRB meetings, which are intended to provide strategic
IT oversight for the entire Department. As a result, TechStat sessions had replaced
rather than supplemented DOT’s IRB reviews, contrary to OMB guidance. As
table 2 on the next page illustrates, TechStat reviews of individual programs serve
a different purpose than IRB oversight of the Department’s entire IT portfolio.
Since March 2011, DOT has only reviewed 9 of 44 (20 percent) major IT
programs using TechStat accountability sessions. Such minimal oversight weakens
DOT’s ability to effectively manage its entire IT investment portfolio. 16




16
  The nine TechStat accountability sessions were held from March 2011 through April 2012. According to DOT OCIO
officials, the OCIO cancelled two sessions scheduled in that timeframe because DOT did not want to review programs
that OMB had already reviewed.
                                                                                                       8


Table 2. Comparison of DOT’s IRB Reviews and TechStat
Sessions
                                                              a                                  b
                      IRB Reviews (including ExComm)                       TechStat Sessions
    Purpose           • Provide strategic leadership               • Reduce wasteful spending by turning
                      • Align IT investments with DOT’s needs        around troubled or risky programs,
                                                                     and terminating failed programs
                      • Establish budget goals as well as
                                                                     sooner
                        performance planning and reporting
                                                                   • Identify lessons learned to better
                      • Review programs to provide executive
                                                                     manage Federal IT Investments
                        management oversight of large-dollar,
                        major, cross-agency, or troubled IT        • Hold officials accountable for
                        projects                                     program success
                      • Review Operating Administrations’ IRB      • Assign concrete actions to address
                        performance and make specific project        weaknesses
                        management recommendations

    Approach          • Semiannual IRB meetings                    • Monthly meetings
                      • Quarterly ExComm meetings

    Voting            •   Deputy Secretary                         • DOT CIO and staff
    Members/Attendees
                      •   DOT CIO                                  • Program office of the troubled
                      •   DOT CFO                                    program
                      •   Deputy General Counsel
                      •   Assistant Secretary for Administration
                      •   Under Secretary for Policy
                      •   Administrator from each DOT Operating
                          Administration

a
  According to the OCIO’s draft, updated IRB Charter (dated October 23, 2012, and pending approval),
several changes are to be made to the IRB. For example, (1) the ExComm will be eliminated and replaced
with an Executive Secretariat, (2) IRB meetings will be held at least annually, and (3) the Senior
Procurement Executive will become a voting member.
b
  DOT’s proposed framework for IT governance, dated December 14, 2012, introduced the concept of an
Investment Working Group (IWG), which would report to the IRB on its analysis and research of IT
investments. A key responsibility of the IWG would include reviews of high-risk or underperforming
investments, a role similar to DOT’s TechStat.
Source: OIG analysis of DOT’s December 4, 2009, IRB Charter; DOT’s draft October 23, 2012,
IRB Charter; and OMB’s TechStat guidance.

DOT Did Not Fully Implement OMB’s TechStat Guidance Resulting in
Diminished Oversight of Its Troubled Programs
During our review, DOT held TechStat reviews as a substitute for a
comprehensive IT management framework. Even though it held TechStat reviews,
it did not fully implement OMB’s TechStat guidance. DOT followed some of
OMB’s guidance on TechStat accountability sessions, such as providing subject
matter expert reviews of investment documents and preparing decision
memoranda that assign action items to program offices. However, DOT did not
comply with OMB guidance to fully develop and institutionalize its TechStat
process. Specifically, DOT did not (1) formalize its TechStat authority within its
                                                                                                                    9


IT management framework, (2) establish clear criteria to select and prioritize
investments requiring TechStat reviews, (3) consistently hold Operating
Administrations accountable for completing assigned action items, or
(4) implement an effective means to document and share lessons learned and best
practices.

DOT did not formalize TechStat authority within its IT management
framework. DOT has not updated its 2009 IRB Charter to reflect OMB guidance,
which states that an agency’s IRB should be the primary governing body that
enforces TechStat decisions. Without an updated charter, DOT’s IRB did not have
formal authority over the TechStat decision-making process. In addition, since no
IRB meetings were held, senior management lacked the insight and ability to
oversee troubled programs, as OMB had intended for a functioning and
comprehensive IT governance framework. 17

DOT does not have clear criteria to select and prioritize investments
requiring TechStat reviews. According to OMB guidance, DOT should have a
methodology and consistent metrics—such as cost, schedule, and program
significance—to select investments for TechStat review. Because DOT does not
have documented procedures for selecting and prioritizing programs for review, it
may miss opportunities to turnaround underperforming programs. For example,
DOT’s TechStat has not yet reviewed three of seven programs that the DOT CIO
currently rates as “at risk.” 18 These three programs represent over $81 million in
fiscal year 2012 spending. 19

DOT does not consistently hold Operating Administrations accountable for
completing assigned TechStat action items. According to OMB guidance, action
items are a main feature of TechStat sessions and can help ensure the success of
reviewed programs. We reviewed the meeting minutes for 8 TechStat sessions 20—
all that were available at the time of our audit—and found that DOT did not track
41 21 (56 percent) of 73 action items to completion, all of which are at least
6 months overdue. For example, at a TechStat session for the National Highway
Traffic Safety Administration’s (NHTSA) Modernization and Consolidation
program—projected to spend $6.8 million through budget year 2013—DOT

17
   The DOT OCIO’s draft updated IRB charter, dated October 23, 2012, would, if adopted, provide the IRB with the
authority to enforce TechStat decisions.
18
   As of July 2012, DOT had seven programs rated as “medium risk” and no programs rated as “high risk.” Two of the
three programs not reviewed have been “at risk” or underperforming since September and November 2011, while the
other has been “at risk” since January 2011.
19
   As reported on OMB’s IT Dashboard.
20
   Although DOT held nine total TechStat sessions, the information for one of these sessions was unavailable at the
time of our review.
21
   The 41 action items include 37 listed in DOT’s action item tracking tool and 4 that were assigned during a TechStat
session but not listed in the tracking tool. DOT did not have documentation explaining why these action items were not
being tracked.
                                                                                                                       10


assigned seven action items to NHTSA program officials to improve cost
consolidation, governance, program initiation, and business needs analysis. 22 Yet
DOT only monitored three of the seven action items to ensure NHTSA completed
them on time. This lack of accountability and follow up weakens the Department’s
management of troubled and underperforming programs, and may impede or delay
decisions to redirect limited budget resources to other programs or agency
priorities.

DOT lacks an effective means to document and share lessons learned and best
practices for its TechStat process. According to OMB, an intended goal of the
TechStat process is to document and share lessons learned and best practices.
DOT’s OCIO stated that DOT officials currently share best practices verbally at
monthly CIO council meetings; however, they do not keep meeting minutes, so
any best practices that may be discussed are not documented—a practice contrary
to OMB guidance. 23 Consequently, DOT is missing opportunities to leverage
knowledge management, information-sharing best practices, and approaches from
Government and industry to ensure that investments produce high-quality products
on time and within budget. 24

DOT Has Initiated Actions To Reform Its Governance Structure But
Does Not Have a Comprehensive Implementation Plan
During the course of our audit, DOT’s OCIO initiated actions to reform its IT
governance. These actions include proposing a new framework for DOT’s IT
governance; issuing a policy order pertaining to DOT’s IT governance structure;
and proposing a draft, updated IRB Charter. However, DOT does not have a
comprehensive plan to implement the new policy order and to finalize the
proposed framework and the draft, updated IRB Charter.

In March 2012, the OCIO shared with us a draft high-level proposal for a new
departmentwide governance structure for major IT investments. The OCIO told us
that the components of the proposed March 2012 structure would include a
reinstatement of DOT’s IRB as the highest level of reporting and a continuation of
TechStat accountability sessions of troubled or underperforming programs.

22
    According to NHTSA, this program is intended to replace two of its core data collection, analysis, and reporting
systems.
23
   OMB Circular A-123, “Management’s Responsibility for Internal Control,” Dec. 21, 2004. The Circular requires that
appropriate internal control should be integrated into each agency system used to direct its operations. It also requires
that agency management should have well-defined documentation processes that contain an audit trail, include
verifiable results, and specify document retention periods so that someone not connected with the procedures can
understand them.
24
   A knowledge-based approach to product development efforts enables developers to be reasonably certain, at critical
junctures or “knowledge points” in the acquisition life cycle, that their projects are more likely to meet established cost,
schedule, and performance baselines, and therefore provides them with information needed to make sound investment
decisions. See GAO report, NASA: Implementing a Knowledge-Based Acquisition Framework Could Lead to Better
Investment Decisions and Project Outcomes (GAO-06-218A) Dec. 21, 2005.
                                                                                                                   11


According to the OCIO, the goal of its new governance structure is to transform
the role of the OCIO to that of a trusted advisor and consultant on the
Department’s major IT projects.

On August 29, 2012, the OCIO issued Policy Order 1351.39, “Departmental
Information Technology Governance Policy,” intended to serve as the overarching
DOT policy pertaining to the governance structure for IT management investments
and operations. The policy order delegates new oversight responsibilities to
DOT’s CIO, including (1) development and implementation of policies, guidance,
standards, and tools to support implementation of the IT governance policy; and
(2) management of oversight processes, including accountability reviews of IT
investments and evidence-based reviews of IT portfolios. The policy order also
calls for Operating Administrations to comply with the IT governance policy and
for increased collaboration among stakeholders. For example, it requires DOT’s
CFO and Senior Procurement Executive (SPE) 25 to integrate the IT governance
policy with their processes for making budget, financial, and acquisition
management decisions.

However, Policy Order 1351.39 only provides a broad outline of DOT’s IT
governance structure and lacks details regarding day-to-day implementation and
practices. For example, the policy order describes DOT’s IT governance structure
as “multiple groups, processes, schedules, roles, and responsibilities” with no
mention of details of the OCIO’s proposed governance structure. Instead, the DOT
policy order acknowledges that the DOT OCIO needs to develop implementation
guidance. 26 Further, the OCIO has not yet developed a comprehensive plan with
milestones to implement the policy order, and the policy order does not clearly
define the roles of critical agency stakeholders in DOT’s governance processes. To
illustrate, the policy order does not specify the SPE’s role in key investment
control and oversight bodies, such as the IRB or TechStat. OMB guidelines and
GAO best practices state that failure to define roles and responsibilities can lead to
missed opportunities to improve acquisition outcomes. 27

In September 2012, we briefed DOT on our audit findings; in response, on
December 14, 2012, DOT held its first IRB meeting since February 2011. At this
meeting, the Deputy Secretary emphasized his commitment to strengthening the
IRB’s role and oversight of DOT’s IT investments. The agenda for the December
14, 2012, IRB meeting consisted of the OCIO introducing the IRB members to (1)
a proposed framework for IT governance at DOT 28 and (2) a draft, updated IRB

25
   The SPE’s responsibilities include ensuring that DOT acquisitions help accomplish the Department’s mission.
26
   DOT Policy Order 1351.39, Section 39.10.1, Aug. 29, 2012.
27
    OMB Memorandum, “Conducting Acquisition Assessments under OMB Circular A-123,” May 21, 2008;
GAO, A Framework for Assessing the Acquisition Function at Federal Agencies (GAO-05-218G), Sept. 2005.
28
   DOT’s proposed IT governance framework, dated December 14, 2012, presented in a conceptual Microsoft
PowerPoint presentation, reflects an evolution of an earlier draft proposal that the OCIO shared with us in March 2012.
                                                                                 12


Charter, dated October 23, 2012. The OCIO’s proposed IT governance framework
includes a conceptual model illustrating the intended roles of DOT’s IRB, a new
Investment Working Group, the Operating Administration’s IRBs, and the DOT
and Operating Administrations’ budget offices. For example,

• The DOT IRB is intended to provide strategic direction and planning for
  departmentwide portfolio concerns and major investments, supply IT guidance
  in support of DOT’s budget and acquisition processes, and ensure
  accountability reviews of IT investments are conducted.

• A new Investment Working Group (IWG), which would report to the IRB, is
  intended to implement cross-cutting initiatives throughout DOT in support of
  the IRB’s priorities. For example, one of the IWG’s key responsibilities would
  be to review high-risk or underperforming investments—a role similar to DOT
  TechStat sessions.

• The Operating Administrations’ IRBs are intended to provide investment
  management—including selecting, controlling, and evaluating their
  investments.

• DOT’s budget office and the Operating Administrations’ budget offices would
  play a role in this new IT governance framework by providing input to the
  DOT IRB and the Operating Administrations’ IRBs.

According to the OCIO, this new governance structure would offer benefits
including cost savings from enterprise solutions, the setting of clear standards and
repeatable processes for departmentwide initiatives, a focus on key priorities for
managing DOT’s IT portfolio, and the integration of IT governance with the
budget formulation process and acquisition strategy and planning. However, while
the OCIO’s proposed structure acknowledged that DOT needs to be more
accountable and efficient while implementing a sound governance process, the
OCIO has not yet set a date to finalize the framework and has not implemented
operating procedures to ensure that this framework is effectively institutionalized
and consistently implemented departmentwide.

The OCIO’s draft, updated IRB Charter presented at the December 14, 2012,
meeting addresses some concerns we shared with DOT during our September
2012 briefing. For example, the draft, updated IRB charter (1) calls for the IRB to
meet at least annually, (2) establishes DOT’s SPE as an IRB voting member, and
(3) assigns the IRB authority to execute management oversight of IT investment
performance through accountability reviews. However, DOT has not finalized a
date to approve the draft, updated IRB charter, and the IRB has not yet convened
to review DOT’s entire IT portfolio.
                                                                                13


Until DOT fully implements its new policy order, finalizes its draft IT governance
framework and draft, updated IRB Charter, and integrates these three efforts, the
Department’s $2.2 billion IT investment portfolio—including NextGen
programs—is at risk of continued cost overruns and schedule slips due to
insufficient oversight.

FAA AND DOT FACE CHALLENGES IN PROVIDING SUFFICIENT
OVERSIGHT OF FAA’S IT INVESTMENTS
FAA’s JRC has a framework for investment governance, yet the Agency does not
always follow this JRC process. As a result, FAA risks making investment
decisions with incomplete information, which could jeopardize the success of
critical FAA programs. Moreover, FAA has recently created a new ATO PMO to
oversee the execution of its IT programs and supplement the JRC, but it lacks
documented policies and procedures to function effectively in this role. Finally,
DOT’s governance process provides limited oversight of FAA’s major IT
investments, which comprise the vast majority of the Department’s investment
portfolio.

FAA Does Not Always Follow Its JRC Process
FAA provides a structure for investment governance through its JRC, which
includes a required approval and oversight process for key investment decisions.
However, the JRC does not always hold program offices accountable for following
this process, including (1) submitting critical investment information prior to
investment decisions, (2) approving investment information prior to decisions,
(3) completing action items on time, (4) meeting scheduled decision due dates, and
(5) maintaining a complete investment decision repository. In addition, the JRC’s
official investment decision repository is incomplete.
Critical investment documents are not always submitted prior to decisions.
The AMS and FAA guidance 29 require FAA program offices to provide the JRC
with specific acquisition planning and control documents prior to key investment
decisions. Without these documents—which contain critical investment data such
as program requirements, detailed plans, cost and schedule estimates, and business
cases—the JRC cannot ensure that it is fully informed on issues that may affect its
investment decisions. However, the JRC made key investment decisions (valued at
$23 million) for 2 of the 15 programs we reviewed without all of the required
investment information—including the Implementation Strategy and Planning
Document (ISPD). FAA describes the ISPD as the most critical, relevant, and
meaningful information for investment decision making, as it contains plans for
the investment’s implementation and in-service management. In one case, the JRC

29
     FAA, Investment Decision Authority Process Guidance, Jul. 30, 2010.
                                                                                                               14


approved an $8 million baseline change for FAA’s Instrument Flight Procedures
Automation program without the required Acquisition Program Baseline
document. 30 In the other case, the JRC approved an initial investment decision for
FAA’s NextGen Facilities program and authorized $15 million to conduct final
investment analysis without required documentation, including the ISPD and the
Final Investment Analysis Plan. 31
Critical investment documents are not always approved prior to decisions.
FAA guidance also requires that the investment information documents be
approved and signed by FAA approving officials prior to investment decisions. 32
However, 4 of the 15 programs we reviewed—including the En Route Automation
Modernization program (ERAM) and Automatic Dependent Surveillance-
Broadcast (ADS-B), which are both NextGen programs—lacked required
approvals for some investment decision documents. Specifically, these programs
lacked approvals for documents such as the final business case, program baseline,
and ISPD. However, the JRC made over $1 billion in investment decisions for
these programs without approvals in place. 33 Missing and/or late signatures may
indicate that approving officials have unresolved concerns with the investment or
that they simply did not review the investment documents. An FAA official said
that the JRC and program offices discuss the risks associated with making
investment decisions without approved investment information. However, FAA
does not document these risk discussions and has not developed risk mitigation
plans—contrary to AMS risk management policies. Further, we identified an
instance in which FAA approving officials backdated approvals of an investment
decision document. This practice calls into question the reliability of other
investment documents that appeared to have timely approvals.

Controls are not in place to ensure action item due dates are met. The JRC
assigns action items to resolve outstanding issues from investment decisions, often
requiring program offices to finalize or obtain approval for investment documents.
However, the JRC does not have adequate controls to ensure action item due dates
are met. For example, the JRC did not hold the ERAM program office accountable
for meeting an action item deadline to resolve open concerns about its ISPD. FAA
had only given conditional approval for the ISPD because it had open concerns
about whether ERAM’s installation and maintenance activities complied with
necessary standards. Rather than require the program office to resolve these
concerns before the decision meeting, the JRC went ahead and approved a
$330 million cost baseline increase in June 2011. The JRC also required the

30
   The Acquisition Program Baseline defines cost, schedule, and performance baselines for the investment program.
31
   The Final Investment Analysis Plan includes detailed cost and benefits estimates, detailed plans, and final
requirements for the most promising alternative.
32
   FAA, Investment Decision Authority Process Guidance, Jul. 30, 2010.
33
   This includes documents that are either still completely missing signatures or were approved as much as 2 months
after the decision date.
                                                                                 15


ERAM program office to resolve open concerns and submit an approved ISPD by
the end of July 2011. Although the ERAM program office missed the deadline by
4 months, there is no evidence that the JRC followed up with ERAM program
officials, nor did it suspend or reconsider its rebaseline decision. The JRC’s
practice of conditionally approving investment decisions without resolving
existing technical program issues puts the schedule and cost for FAA programs at
risk. These risks are magnified in already troubled programs.

Scheduled investment decision meeting dates are not always met. The JRC
does not hold program offices accountable for missing scheduled investment
decision meetings. For example, FAA’s Aeronautical Information Management
Modernization (AIM-M) program office postponed a final investment decision
meeting three times over a 20 month period. The decision meeting concerned
segment 1 (valued at $23 million) of the AIM-M program, which is intended to
improve the capacity and efficiency of airspace usage while reducing safety
incidents caused by out-of-date or confusing information. Although the JRC
ultimately canceled the AIM-M final investment decision meeting, it authorized
$6.5 million in funding for the program based on the program office’s financial
and technical analysis. This practice of postponing or canceling key investment
decisions could also result in significant delays to interdependent programs. For
example, FAA’s Next Generation Air/Ground Communications (NEXCOM)
shares interdependencies with AIM-M and could be affected by delays in AIM-M
decisions.

The JRC’s investment decision repository is incomplete. FAA has not
identified what type of investment decision documentation should be maintained
by the JRC Executive Secretariat, and this office has only kept partial records of
investment decision documents in its official repository. According to the AMS,
the JRC Executive Secretariat’s office is to populate and maintain the repository to
ensure it contains investment decision documentation, records of decision meeting
minutes, assigned action items, and investment decision guidance documents and
processes. However, the AMS does not specify which specific decision
documents, such as the ISPD, should be maintained in the repository.
Consequently, we found that critical investment information was sometimes
dispersed among the JRC repository, program offices, and other FAA offices.
Specifically, for the 15 FAA programs that had key investment decisions between
2010 and 2011, the repository lacked 14 of 53 investment decision documents—
including investment analysis plans and final ISPDs. Secretariat officials stated
that they did not consistently maintain documents in the repository because they
believed the documents were available elsewhere, such as a program office.
However, one Secretariat official said that maintaining all investment documents
in the repository would be a good business practice. In the absence of a properly
maintained investment repository, FAA is missing opportunities to leverage
                                                                                                                     16


knowledge management and information-sharing best practices and approaches
from Government and industry to effectively manage its investments, including
the (1) consistent management of investment information, (2) tracking of program
baselines, (3) identification of major IT cost and management trends and program
risks, (4) application of knowledge-based acquisition principles, and (5) capturing
of lessons learned. 34 Leading organizations in Government and industry have used
such approaches to deliver high-quality products on time and within budget.

FAA Is Currently Implementing a New ATO Program Management
Office To Enhance Program Oversight
In September 2011, Congress approved FAA’s request to create a new ATO
PMO 35 as part of the Agency’s “Foundation for Success” initiative, which is
focused on putting in place an improved organizational structure with the
flexibility needed to keep pace with the growth and advancement of aviation
worldwide. The ATO PMO is responsible for overseeing 26 of the Agency’s
37 major IT programs. FAA estimated that it would spend $1.8 billion on these
26 programs in fiscal year 2012. According to the Secretary of Transportation,
combining FAA’s program managers under one organization will create a stronger
program management community, provide greater transparency and
accountability, and improve consistency and sharing of best practices. However,
Congress noted that FAA’s past efforts to streamline operations have met with
limited success in controlling operating costs and executing major acquisitions,
and warned that the new reorganization will be “hollow” unless FAA builds the
necessary expertise and strengthens program management for NextGen. 36

Within the ATO PMO, FAA established a Program Control Group, which is
expected to provide another layer of review to supplement the JRC’s investment
approval and oversight processes. 37 However, the group is only about 55 percent
staffed and lacks documented policies and procedures to function effectively in
this role. 38 For example, PMO officials stated that the Program Control Group is
responsible for assessing investment decision documents, yet the group lacks
formal policies and procedures to evaluate whether decision documents will

34
    GAO, Information Technology Investment Management: A Framework for Assessing and Improving Process
Maturity (GAO-04-394G), Mar. 2004.
35
   FAA PMO officials told us that the PMO was “stood up” in May 2012.
36
   Departments of Transportation, and Housing and Urban Development, and Related Agencies Appropriations Bill,
2013 (House of Representatives Report No. 112-541), Jun. 20, 2012.
37
   The Program Control Group’s other functions include providing quality assurance, monitoring program metrics,
tracking best practices, standardizing program reporting mechanisms, and serving as a direct interface to other lines of
business (such as FAA’s acquisitions, CIO, and finance offices). The Program Control Group meets biweekly.
38
   GAO’s March 2004 report, Information Technology Investment Management: A Framework for Assessing and
Improving Process Maturity, states that in order for an organization to develop a sound IT investment process, it must
attain successful IT investment control techniques at the project level. The absence of predictable, repeatable, and
reliable investment control processes will result in ineffective evaluation processes and contradictory efforts at process
improvement.
                                                                                                                    17


provide the JRC with reliable and complete information on which to make
investment decisions. PMO officials stated that process standardization will occur
over time but could not provide dates by which it expected to complete this
standardization. Without standardized operating processes, it may be challenging
for the PMO to effectively manage FAA’s ATO programs and achieve its goals
for transparency, accountability, and consistency.

DOT’s IT Governance Process Provides Limited Oversight of FAA
Investments
FAA accounts for a significant portion of DOT’s investments and, in fiscal year
2012, represented 94 percent ($2.07 billion) of DOT’s total major IT investment
portfolio. However, the DOT IRB provides limited oversight of these investments.
FAA has agreed to take part in DOT’s IRB investment planning and oversight
processes—through actions such as signing DOT’s 2009 IRB charter and agreeing
to “voluntarily participate” in the IRB’s ExComm reviews 39—even though the
Agency has been granted independent acquisition authority. 40 According to FAA,
this authority exempts the Agency from most Federal procurement laws, including
the Clinger-Cohen Act that mandated agency IRBs. Despite FAA’s voluntary
agreement to take part in DOT’s IT investment management process, DOT’s
OCIO officials told us that FAA’s independent acquisition authority could impede
the Department’s ability to oversee FAA investments. 41 Therefore, DOT has only
reviewed two FAA programs in the past 2 years, even though FAA’s investments
make up the largest portion of DOT’s IT investment portfolio. DOT’s IRB
reviewed FAA’s ERAM program in February 2011, and DOT performed a
TechStat review of FAA’s NAS Voice System, a key enabling program for
NextGen, in April 2012.

Improved oversight is especially important for FAA’s NextGen transformational
programs, given their mission criticality and significant cost. FAA plans to spend
more than $2 billion on NextGen over the next 4 years; yet, as we reported in
April 2012, FAA has not established reliable and comprehensive baselines for its
six NextGen transformational programs and has made limited progress
implementing them due to a lack of finalized requirements. 42



39
   DOT Deputy Secretary Memorandum, “OA Investment Review Board (IRB) Requirements and Interaction with the
Executive Committee (ExComm) of the DOT IRB,” Nov. 4, 2008.
40
   49 U.S.C. § 106(f) states that the FAA Administrator, rather than the Secretary of Transportation, has final authority
over FAA Acquisitions; 49 U.S.C. § 40110(d) empowers the FAA Administrator to establish the AMS to address the
unique needs of FAA without requiring compliance with most Federal acquisition laws or regulations.
41
   The FAA administrator has the final authority with respect to FAA acquisitions using the Agency’s independent
procurement authority once the final investment is approved by the JRC.
42
   Status of Transformational Programs and Risks to Achieving NextGen Goals (OIG Report No. AV-2012-094), Apr.
23, 2012.
                                                                                 18


CONCLUSION
Effective investment oversight and decision making are critical to the
Department’s IT modernization efforts—especially FAA’s NextGen programs.
However, governance structures, related plans, and procedures for
implementation, as well as oversight processes are incomplete. Until DOT and
FAA address these shortfalls, their ability to effectively manage major acquisitions
and make well-informed investment management decisions remains at risk, as
does the Department’s ability to reap the benefits that accompany sound IT
investment management and oversight strategies.

RECOMMENDATIONS
We recommend that the DOT Deputy Secretary require the OCIO to:

1. Develop a comprehensive implementation plan for its proposed IT governance
   framework, which includes all DOT Operating Administrations’ IT
   investments and clearly assigns organizational responsibilities, accountability
   and authority, milestones to complete activities, and written policies and
   procedures. This implementation plan should integrate and coordinate Policy
   Order 1351.39, “Departmental Information Technology Governance Policy”;
   DOT’s draft, updated IRB Charter; and any other documents integral to the
   framework.

2. Finalize DOT’s draft, updated IRB charter to clarify organizational
   responsibilities, define IRB and TechStat roles and responsibilities, and
   establish the Senior Procurement Executive as a voting member.

3. Establish written policies and procedures for TechStat accountability sessions,
   or similar review sessions for troubled and underperforming IT investments.
   These policies and procedures should include criteria for selecting programs to
   review, accountability controls to ensure actions items are fully and timely
   implemented, and a method to share and document lessons learned across the
   Department.
We recommend that FAA’s Federal Acquisition Executive:

4. Strengthen internal controls to ensure that required investment decision
   documents are reviewed and approved prior to JRC decision meetings as
   required by the Acquisition Management System.

5. Develop procedures to (a) document the JRC’s discussions with program
   offices when JRC decisions are made without required investment documents,
   (b) identify the risks of moving forward without the documents, and (c) ensure
                                                                               19


   that these documented discussions are maintained in the JRC’s information
   repository.

6. Establish procedures to ensure that the JRC Executive Secretariat effectively
   maintains the JRC’s information repository, including all documents that
   support key investment decisions.

7. Update the Acquisition Management System to specify the investment
   documents that are required to be included in JRC’s information repository and
   the location of those that should be stored elsewhere.

We recommend that FAA’s Vice President of the ATO PMO:

8. Fully staff the ATO Program Control Group, and develop and implement
   standardized operating policies and procedures for use by the group.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST and FAA with our draft report on January 22, 2013, and
received its response on March 12, 2013, which can be found in its entirety in the
appendix of this report. OST and FAA concurred with all recommendations and
stated that they have already implemented corrective actions for recommendations
3 and 6, as of March 12, 2013. We consider these recommendations resolved but
open pending our verification that these reported corrective actions are complete.
OST and FAA have also provided sufficient planned actions with reasonable
target dates for recommendations 1, 2, 4, 5, 7, and 8. Accordingly, we consider
these recommendations resolved but open pending completion of the planned
actions.

ACTIONS REQUIRED
We consider recommendations 1, 2, 4, 5, 7, and 8 resolved but open pending
completion of the planned actions. We consider recommendations 3 and 6
resolved but open pending our verification of the completed actions cited by OST
and FAA. For recommendations 3 and 6, we request that OST and FAA provide
information that clearly indicates what actions have been taken. Specifically, for
recommendation 3, we request that OST provide us the DOT OCIO’s completed
standard operating procedure for the TechStat process and the date of its
implementation. For recommendation 6, we request that FAA provide us its
procedures to ensure that the JRC Executive Secretariat effectively maintains the
JRC’s information repository and the date of their implementation. In accordance
                                                                                20


with DOT Order 8000.1C, we request that OST and FAA provide this information
within 30 days.

We appreciate the courtesies and cooperation of OST and FAA representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366–5225; Tony Wysocki, Program Director, at (202) 493–0223; or Dana
Short, Project Manager at (202) 366–2089.

                                        #

cc:   DOT Audit Liaison (M–1)
      FAA Audit Liaison (AAE–100)
                                                                               21



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit between September 2011 and January 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To assess whether the Department of Transportation’s (DOT) investment
governance practices meet Federal and statutory investment oversight
requirements and best practices, we reviewed all of the Office of the Secretary’s
(OST) TechStat accountability sessions held from March 2011 through April 2012
to determine the extent to which OST follows the Office of Management and
Budget’s (OMB) TechStat model. In addition, we interviewed officials from
DOT’s Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO) and the Senior Procurement Executive (SPE). We also
surveyed the 12 Operating Administrations’ CIOs to collect information on OST’s
acquisition oversight and decision processes; 11 CIOs responded.

To assess whether the Federal Aviation Administration (FAA) and DOT provide
sufficient oversight of FAA’s major information technology investments, we
reviewed 15 (100 percent) of the key investment decisions, with a total value of
over $2.6 billion, that were made by FAA’s Joint Resources Council (JRC) during
calendar year 2010 through November 2011. We reviewed these decisions to
determine if required documentation was received, approved, and signed at the
time of the decision date. We also interviewed FAA’s JRC Executive Secretariat,
JRC members, FAA’s Federal Acquisition Executive, an OCFO official, the Air
Traffic Organization’s Program Management Office (ATO PMO) officials, and
FAA program managers.

In addition, we assessed FAA’s and OST’s investment approval and oversight,
procurement practices, and compliance against criteria and best practices such as:

• FAA:
  - Acquisition Management System (AMS), including 1.2 Key Elements of
    Acquisition Management; 2.0 Lifecycle Acquisition Management Policy;
    4.15 Post Implementation Review and Operational Analysis, Appendix A:
    Roles and Responsibilities, and Appendix B: Acquisition Planning and
    Control Documents.
  - FAA’s Capital Investment Plan for FY 2012-2016 and FY2013-2017.




Exhibit A. Scope and Methodology
                                                                             22



• OMB:
  - OMB Circulars: A-11, Part 7: “Planning, Budgeting, Acquisition, and
    Management of Capital Assets,” August 2011; A-123, “Management’s
    Responsibility for Internal Control,” Dec. 21, 2004; and A-130,
    “Management of Federal Information Resources;” November 28, 2000.
  - OMB Capital Programming Guide V3.0 Supplement to OMB Circular A-
    11, Part 7: “Planning, Budgeting, Acquisition, and Management of Capital
    Assets,” August 2011.
  - OMB Memorandum, “Conducting Acquisition Assessments under OMB
    Circular A-123,” May 21, 2008.
  - OMB Memorandum, “Chief Information Officer Authorities,” August 8,
    2011.
  - OMB, 25 Point Implementation Plan to Reform Federal Information
    Technology Management, December 2010.

• Government Accountability Office (GAO), Information Technology
  Investment Management: A Framework for Assessing and Improving Process
  Maturity (GAO-04-394G), March 2004.

• Clinger-Cohen Act of 1996          (formerly   the   Information   Technology
  Management Reform Act).

• National Aeronautics and Space Administration (NASA):
  - NASA Policy Directive 1440.6H, “NASA Records Management,” March
     2008.
  - NASA Procedural Requirements 1441.1D, “NASA Record Retention
     Schedules,” June 2009; 2800.1B, “Managing Information Technology,”
     March 2009; 7120.6, “Lessons Learned Process,” January 2010; and
     7120.7, “NASA Information Technology and Institutional Infrastructure
     Program and Project Management Requirements,” December 2011.

• Department of Defense (DoD):
  - DoD Directive 5000.02, “Operation of the Defense Acquisition System,”
    December 2008.
  - DoD IT Defense Business Systems Investment Review Process Guidance,
    January 2009.
  - DoD Report to Congress, “DoD Investment Review Board and Investment
    Management Process for Defense Business Systems,” March 2012.

Finally, to gain an understanding of IT investment best practices, we spoke with
officials at GAO and OFPP.



Exhibit A. Scope and Methodology
                                                                           23




EXHIBIT B. PRIOR OIG AUDITS RELATED TO FAA PROGRAMS

These OIG reports and testimonies are available on our Web site at
www.oig.dot.gov.

Status of Transformational Programs and Risks to Achieving NextGen Goals
   (OIG Report No. AV-2012-094), Apr. 23, 2012.

DOT Does Not Have an Effective Enterprise Architecture for the Management of
  Information Technology Changes (OIG Report No. FI-2012-086),
  Apr. 17, 2011.

Progress and Challenges in Developing and Transitioning to the Next Generation
   Air Transportation System (OIG Congressional Testimony No. CC-2011-036),
   Oct. 5, 2011.

Actions Needed to Meet FAA’s Long-Term Goals for                     NextGen
   (OIG Congressional Testimony No. CC-2011-016), Feb. 16, 2011.

Status of FAA’s Major Acquisitions: Cost Growth and Schedule Delays Continue
   to Stall Air Traffic Modernization (OIG Report No. AV-2005-061),
   May 26, 2005.




Exhibit B. Pri or OIG Audits Related to F AA Programs
                                                           24



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Anthony Wysocki                         Program Director

Dana Short                              Project Manager

Angela Hailes                           Analyst

David Lahey                             Auditor

Kathryn Novicky                         Analyst

Arnett Sanders                          Project Manager

Amy Berks                               Senior Counsel

Tanner Horton-Jones                     Legal Intern

Christina Lee                           Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                         25


APPENDIX. AGENCY COMMENTS
                    THE DEPUTY SECRETARY OF TRANSPORTATION
                                  WASHINGTON, D.C. 20590

                                              March 12, 2013

MEMORANDUM TO:                Calvin L. Scovel III
                              Inspector General

FROM:                         John D. Porcari
                              Deputy Secretary

SUBJECT:                      Management Response to Office of Inspector General Draft
                              Report on the Department’s Information Technology
                              Investment Governance Process


Information Technology Investments Are Thoroughly Scrutinized

The Department has provided thorough oversight of information technology (IT) investments
in order to achieve the best possible outcomes using available tools and current processes.
This has included consideration of systems from various perspectives, including technical,
budgetary, and procurement. Oversight processes have been applied at the Operating
Administration (OA) level and in the Office of the Secretary. These processes have been
effective at identifying problem systems as well as identifying and implementing the
measures necessary to get these systems back on track. While effective, we recognize that
the Department would benefit from a more comprehensive approach that fully achieves the
synergies available by refreshing the Investment Review Board (IRB) process to ensure the
new governance process provides meaningful and effective oversight.

More Comprehensive Governance Structure for Major IT Investments

Substantive changes are underway to enhance the governance processes utilized by the
Department. The Investment Review Board (IRB) is currently revising its charter to place a
clearer focus on strategic leadership for all departmental IT investments. The IRB is
planning to reconvene as the Department refines its IT governance and portfolio management
policies and practices to improve the effectiveness of IT investment management while
promoting efficient use of IT resources. The Department is working to ensure that its
governance process effectively aligns the technical perspective of the CIO with the resource
availability and efficiency perspective from the Chief Financial Officer and sound
contracting practices through the Senior Procurement Executive. At the same time, DOT
needs to accommodate sound IRB principles and practices in a manner that is consistent with
its unique statutory requirements and maintaining effective interactions with the Federal
Aviation Administration (FAA).




Appendix. Agency Comments
                                                                                              26


Central to enabling this strategic leadership, the departmental governance structure seeks to
take a portfolio-based approach, tightly integrating the areas of Enterprise Architecture (EA)
and Capital Planning & Investment Control (CPIC). EA provides authoritative data, used to
conduct analysis that frames strategic opportunities for IT investments. CPIC is the manner
by which we select our strategic IT investments, monitor their progress and ensure they
achieve the intended business outcomes. This renewed focus is intended to provide not only
compliance with the issues identified in the OIG draft report, but to give a clear picture of the
Departments IT portfolio and how those investments are being developed and managed
throughout their lifecycle.

Over the past year, the Department, including the FAA, has made significant progress in
further improving IT capital investment processes and oversight of these investments. For
example, the Acting Chief Information Officer, Senior Procurement Executive and the Chief
Financial Officer are working closely on strategic sourcing and investments supporting the
planning, acquisition, and management of information technology for the entire Department.
In addition, in order to assure even greater transparency over FAA investments, the FAA has
invited the Department’s Office of the Chief Information Officer (OCIO) as well as a
member of the Office of the Chief Financial Officer to attend the FAA Joint Resources
Council (JRC) meetings.

RECOMMENDATIONS AND RESPONSE

OIG offered the following recommendations to OST:

Recommendation 1: Develop a comprehensive implementation plan for its proposed IT
governance framework, which includes all DOT Operating Administrations’ IT investments
and clearly assigns organizational responsibilities, accountability and authority, milestones to
complete activities, and written policies and procedures. This implementation plan should
integrate and coordinate Policy Order 1351.39, “Departmental Information Technology
Governance Policy;” DOT’s draft, updated IRB Charter; and any other documents integral to
the framework.

Response: Concur. The DOT OCIO is currently completing a comprehensive
implementation plan for the new governance processes. We intend to complete this action by
June 28, 2013.

Recommendation 2: Finalize DOT’s draft, updated IRB charter to clarify organizational
responsibilities, define IRB and TechStat roles and responsibilities, and establish the Senior
Procurement Executive as a voting member.

Response: Concur. The DOT OCIO has sent a revised IRB Charter to all OA’s, adjudicated
and updated with appropriate comments, and will have a final signed version for use by the
DOT IRB. We intend to complete this action by June 28, 2013.

Recommendation 3: Establish written policies and procedures for TechStat accountability
sessions, or similar review sessions for troubled and underperforming IT investments. These
policies and procedures should include criteria for selecting programs to review, accountability




Appendix. Agency Comments
                                                                                            27


 controls to ensure actions items are fully and timely implemented, and a method to share and
document lessons learned across the Department.

Response: Concur. The DOT OCIO has completed a standard operating procedure (SOP)
for the TechStat process, tailored to the needs of the Department, and will provide a copy to
the OIG with our final response. This recommendation has been completed in full.

OIG offered the following recommendations to FAA:

Recommendation 4: Strengthen internal controls to ensure that required investment
decision documents are reviewed and approved prior to JRC decision meetings as required by
the Acquisition Management System.

Response: Concur. The FAA JRC Executive Secretariat will ensure required investment
decision documents are reviewed and approved prior to JRC decision meetings by using the
JRC Readiness System to track open checklist items that must be closed before the
investment is placed on the JRC meeting agenda. The internal process calls for required
documents to be provided to the JRC Secretariat one week prior to the investment decision
meeting. The Secretariat has established a mailbox which is used as a drop box where the
documents (with all the required signatures) are uploaded, extracted and placed in the official
repository. This change in our internal controls was put into place in May of 2012. In the
event an exception is granted, for example when an approving official requests a JRC
discussion prior to final concurrence for good cause and there is no objection from the
organization that has not yet signed, an action item will be formally assigned and tracked to
closure using the JRC tracking system. Open action items are reviewed at each Acquisition
Quarterly Program Review meeting by the JRC, which gives the members an opportunity to
take the appropriate action to ensure action items are completed. These enhancements to our
internal controls are being documented in the JRC Executive Secretariat’s standard operating
procedures. This recommendation is intended to be completed by April 30, 2013.

Recommendation 5: Develop procedures to (a) document the JRC’s discussions with
program offices when JRC decisions are made without required investment documents, (b)
identify the risks of moving forward without the documents, and (c) ensure that these
documented discussions are maintained in the JRC’s information repository.

Response: Concur. The FAA JRC investment decision briefing templates will be revised to
reflect that any investment program requesting approval from the JRC to be allowed to
proceed to an investment decision without providing the required documentation prior to the
decision meeting must identify the reason for the delay in providing the documents, the risks
if allowed to move forward without them, and the planned date that the documents will be
provided to the JRC Executive Secretariat. The Record of Decision (ROD) of the meeting
will document the discussion held by the JRC, the assigned action item, the action item due
date and organization responsible for completing the action. The briefing provided to the JRC
along with the final approved ROD will be maintained in the JRC documentation repository.
The briefing templates will be revised and posted to the JRC Executive Secretariat web site
for use by investment programs by April 30, 2013.




Appendix. Agency Comments
                                                                                           28


Recommendation 6: Establish procedures to ensure that the JRC Executive Secretariat
effectively maintains the JRC’s information repository, including all documents that support
key investment decisions.

Response: Concur. The aforementioned procedures that have been developed and executed
related to the JRC Executive Secretariat internal controls will be used to ensure that the FAA
JRC documentation repository both physical and virtual are effectively maintained. All
documentation identified in the AMS as exit criteria for each key decision point is being
obtained prior to the investment decision meeting or by the assigned due date established by
the JRC and placed in the physical repository and uploaded in the virtual repository. This
recommendation is considered complete.

Recommendation 7: Update the Acquisition Management System to specify the investment
documents that are required to be included in JRC’s information repository and the location
of those that should be stored elsewhere.

Response: Concur. FAA will update the Acquisition Management System by April 30,
2013 to specify the AMS-required decision documents to be stored in the JRC’s information
repository, and the location of other related documents to be stored elsewhere.

Recommendation 8: Fully staff the ATO Program Control Group, and develop and
implement standardized operating policies and procedures for use by the group.

Response: Concur. The FAA Air Traffic Organization’s Program Management
Organization (PMO) is adding staff to the Program Control Group and intends to have it fully
staffed by September 30th, 2013. The PMO is currently developing and implementing several
Standard Operating Procedures (SOPs) for the entire organization, including Program
Control. For clarification, the PMO Program Control Group is not intended to be responsible
for assessing investment decision documents in order to evaluate whether the documents will
provide the JRC with reliable and complete information. Multiple organizations across the
Agency are responsible for assessing decision documents, including the Office of Financial
Management, NAS Systems Engineering Services, and ATO’s Technical Operations Service
Unit. The Program Control Group, once fully staffed, will perform assessments of PMO
program planning documentation, to ensure consistency and accountability for the PMO
leadership. The PMO plans to develop the SOP for these assessments by June 30th, 2013.
Additional PMO Program Control SOPs are planned developed and implemented prior to
June 30th, including the procedures for internal Program Reviews, PMO Business Planning,
and various document control processes.




Appendix. Agency Comments
